<html>
<title> - PRESERVING A LIFELINE: EXAMINING PUBLIC HOUSING IN A PANDEMIC</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                    PRESERVING A LIFELINE: EXAMINING
                      PUBLIC HOUSING IN A PANDEMIC

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON HOUSING,
                         COMMUNITY DEVELOPMENT,
                             AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 117-13
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-440 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            STEVE STIVERS, Ohio
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
                  Subcommittee on Housing, Community 
                       Development, and Insurance

                  EMANUEL CLEAVER, Missouri, Chairman

NYDIA M. VELAZQUEZ, New York         STEVE STIVERS, Ohio, Ranking 
BRAD SHERMAN, California                 Member
JOYCE BEATTY, Ohio                   LANCE GOODEN, Texas
AL GREEN, Texas                      BILL POSEY, Florida
VICENTE GONZALEZ, Texas              BILL HUIZENGA, Michigan
CAROLYN B. MALONEY, New York         LEE M. ZELDIN, New York
JUAN VARGAS, California              TREY HOLLINGSWORTH, Indiana
AL LAWSON, Florida                   BRYAN STEIL, Wisconsin, Vice 
CINDY AXNE, Iowa                         Ranking Member
RITCHIE TORRES, New York             JOHN ROSE, Tennessee
                                     VAN TAYLOR, Texas
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    March 24, 2021...............................................     1
Appendix:
    March 24, 2021...............................................    31

                               WITNESSES
                       Wednesday, March 24, 2021

Banna, Georgi, Director of Policy and Program Development, the 
  National Association of Housing and Redevelopment Officials 
  (NAHRO)........................................................     5
Duran, Oscar, Executive Director, Municipal Housing Agency of 
  Council Bluffs (MHACB).........................................     9
Gage, Brian, Executive Director, Akron Metropolitan Housing 
  Authority (AMHA)...............................................     6
Hendrix, Michael, Director, State and Local Policy, Manhattan 
  Institute......................................................    11
Mohamud, Tamir Ali, Commissioner and Vice President, Minneapolis 
  Highrise Representative Council (MHRC).........................     8

                                APPENDIX

Prepared statements:
    Banna, Georgi................................................    32
    Duran, Oscar.................................................    39
    Gage, Brian..................................................    43
    Hendrix, Michael.............................................    49
    Mohamud, Tamir Ali...........................................    61

 
                    PRESERVING A LIFELINE: EXAMINING
                      PUBLIC HOUSING IN A PANDEMIC

                              ----------                              


                       Wednesday, March 24, 2021

              U.S House of Representatives,
                           Subcommittee on Housing,
                             Community Development,
                                     and Insurance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 12:07 p.m., 
via Webex, Hon. Emanuel Cleaver [chairman of the subcommittee] 
presiding.
    Members present: Representatives Cleaver, Velazquez, 
Sherman, Beatty, Green, Gonzalez of Texas, Maloney, Vargas, 
Lawson, Axne, Torres; Stivers, Gooden, Posey, Huizenga, Zeldin, 
Hollingsworth, Steil, Rose, and Taylor.
    Ex officio present: Representative Waters.
    Chairman Cleaver. The Subcommittee on Housing, Community 
Development, and Insurance will now come to order. Without 
objection, the Chair is authorized to declare a recess of the 
subcommittee at any time. Also, without objection, members of 
the full Financial Services Committee who are not members of 
this subcommittee are authorized to participate in today's 
hearing.
    Now, just as a reminder, I ask all Members to keep 
themselves muted when they are not being recognized by the 
Chair. The staff has been instructed not to mute Members except 
when a Member is not being recognized by the Chair and there is 
inadvertent background noise. Members are also reminded that 
they may only participate in one remote proceeding at a time. 
If you are participating today, please keep your camera on. And 
if you choose to attend a different remote proceeding, please 
turn your camera off.
    Today's hearing is entitled, ``Preserving A Lifeline: 
Examining Public Housing in a Pandemic.'' I now recognize 
myself for 4 minutes for an opening statement.
    In 1937, FDR was still struggling with the issues of the 
Depression, and he came up with this idea of having something 
to address the housing problems in the country, which was a 
critical social need. And what he did was come up with the 
Housing Act, which established the Public Housing Program with 
the express purpose of providing some kind of financial 
assistance to State and local governments for the elimination 
of unsafe and unsanitary housing conditions. And it was 
supposed to eradicate slums. Well, it didn't quite do that, 
because I grew up in public housing quite some time after that, 
and they were slums. But it was a great idea, and we still are 
having to deal with it.
    In the year 2021, it is unfortunate, but a reality 
nonetheless, that the national affordable housing challenge 
that gave rise to the need for public housing continues to 
persist. According to the National Low Income Housing 
Coalition, the United States has a shortage of roughly 7 
million rental homes that are affordable and available to 
extremely low-income renters. Only 37 percent of affordable and 
available rental homes exist for every 100 extremely low-income 
renter households.
    In my community here in Kansas City, in our metropolitan 
area that I represent, it is estimated that 84 percent of the 
extremely low-income renter households are cost-burdened, 
meaning they are spending more than 30 percent of their income 
on housing costs and utilities. And if you are vulnerable in 
this country in terms of housing, you need shelter to face all 
of the challenges that come to all of us, but the housing is 
the most needed.
    There are an estimated 2.6 million public housing residents 
across 1.1 million public housing units in the United States. 
Eighty-two percent of public housing residents are extremely or 
very low-income, and to ensure affordability, rent for public 
housing residents is generally capped at 30 percent of 
household income. But if you are poor, that 30 percent can wipe 
you out. My dad had to pay almost that much for our housing to 
accommodate his four children and my mother. But when you talk 
about poverty, that was real poverty.
    Public housing is critical infrastructure. And I want to 
thank again, publicly, Full Committee Chairwoman Waters, for 
her steadfast, strong, unbending support for affordable 
housing, and I think that it is long past due when we should 
place emphasis on public housing. We also cannot forget, in 
this conversation, that public housing communities are often 
more than housing. Amid COVID-19, housing authorities have 
played an important role in protecting residents, ensuring 
social support activities could continue, and securing 
opportunities for testing and vaccinations.
    So, we want to thank Chairwoman Waters for her work, and I 
will now recognize Chairwoman Maxine Waters for an opening 
statement.
    Chairwoman Waters. Thank you very much, Mr. Chairman. I 
certainly appreciate this hearing that you are holding today. 
Of course, I have been a long-time advocate for public housing, 
and I greatly appreciate all of the work that public housing 
authorities and their staff have done to keep their residents 
safe and connected to their community during this trying time. 
I want you to know that while I did not grow up in public 
housing, many of my family members did grow up in public 
housing. Don't forget, I am one of thirteen children, so I was 
gone from the family residence. And after I was gone, for many 
of those family members, the only place that was affordable to 
them was public housing.
    I am from St. Louis, Missouri, and we have some of the 
oldest public housing in St. Louis--Carr Square Village--and of 
course, I was there when they developed Pruitt-Igoe, and when 
they tore it down, and we learned a lot from those lessons. And 
so, I am very pleased to be with you today. Housing is 
infrastructure, and we are going to make sure that public 
housing is covered in our infrastructure bill. Thank you, and I 
yield back the balance of my time.
    Chairman Cleaver. Thank you, Madam Chairwoman.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Stivers, for 5 minutes for an opening 
statement.
    Mr. Stivers. Thank you, Mr. Chairman. On our first hearing 
of the subcommittee for this Congress, I want to congratulate 
you on your new leadership role as the Chair of the 
subcommittee, and I want to tell you that I look forward to 
working with you. We have worked well together in the past, and 
I know that we will work well together here. There are a lot of 
important issues that we need to address around housing. You 
talked about building capacity. I think it is very important. 
We are 50,000 units short in my home community here in Franklin 
County, Ohio.
    Another couple of things I think we ought to talk about 
today are giving flexibility to the housing authorities for 
their individual communities and what works best for them, and 
finally, we need to work to increase the self-sufficiency of 
folks who are in public housing. We should be proud to graduate 
people out of public housing and give them a leg up and a hand 
up to a brighter future.
    Today, we are going to hear testimony from several 
witnesses who will talk about housing across the country, from 
New York to Council Bluffs, to Akron, and Minneapolis, and 
every community has different needs and priorities and a 
different way of serving their population. And what works for 
one public housing authority (PHA) might not work for all PHAs, 
especially a large urban core versus a more mid-sized community 
or a smaller community. That is why I think it is important 
that we give flexibility to housing authorities.
    I think your recognition that we have to build capacity 
because we are 7 million rental units short in this country is 
a great observation. I look forward to working with you on 
those issues, Mr. Chairman. And I think we should be proud to 
work to build self-sufficiency among the clients of public 
housing.
    Again, the thing we need to take away from this hearing is 
mostly about flexibility. One-size-fits-all proposals do not 
work. Instead, public housing authorities should be empowered 
to pursue solutions that work for them. It might be a big 
public model, or it might be the Rental Assistance 
Demonstration (RAD) Project, something that came out under the 
Obama Administration, which allows PHAs to convert their 
housing units into privately-owned projects, and they can 
leverage private-market funding.
    Under President Obama and since, this program has generated 
$12.6 billion in private investment, and we need to recognize 
that. And as we are making infrastructure investments, we need 
to allow the private sector to invest alongside us.
    My colleagues on both sides of the aisle should also 
consider the barriers that tenants face. Currently, rent 
contributions are linked to income, which results in a benefit 
cliff that creates a big problem for building self-sufficiency, 
and I think we should be talking about that. It is especially 
important as we talk about the recovery that is about to happen 
out of the pandemic. We are seeing, ``Help Wanted'' signs 
everywhere, and I think it is time we do away with the benefit 
cliff and turn it into a ramp. Let us let people ramp up to a 
better way of life and real opportunity and build self-
sufficiency.
    And I think rental assistance is a great way to start 
talking about ending the benefit cliff that traps so many 
people and doesn't let them build self-sufficiency. It is a 
well-intended concept, but it is time we fix it and make it a 
ramp and give people incentive and help them as they are trying 
to move up their station in life.
    Additionally, by paying rent month after month, individuals 
get no closer to homeownership, and this committee has agreed 
time and time again that homeownership is an important part of 
wealth building. I look forward to working with the chairman. 
He and I have had conversations about this already. I have 
talked to Secretary Fudge about this. We have to figure out how 
to create some things like maybe the option of a right-to-buy 
that they have in the United Kingdom for people who pay months 
and months of rent. And that would really give us an 
opportunity to move toward self-sufficiency and building wealth 
and the American Dream of homeownership for millions of 
Americans who may never see it today.
    And I think that is something that I look forward to 
working with you on, Mr. Chairman, because these issues are not 
partisan. It is about solutions and doing what is right for the 
American people. I look forward to hearing from the witnesses 
today, and I just want to, again, as I wrap up my last 15 
seconds, say that the thing that we need to keep in mind is 
that flexibility is the right answer. There is no one right-
sized solution. It is not maybe all the RAD program, but it 
might also not only be big public housing. So, I hope we pursue 
flexibility today. I yield back.
    Chairman Cleaver. I look forward to working with you, 
Ranking Member Stivers.
    Mr. Stivers. Thank you.
    Chairman Cleaver. Today, we welcome the testimony of our 
distinguished witnesses: Georgi Banna, who is the director of 
policy and program development at the National Association of 
Housing and Redevelopment Officials; Brian Gage, who is the 
executive director of the Akron Metropolitan Housing Authority; 
Tamir Ali Mohamud, who is a commissioner and vice president of 
the Minneapolis Highrise Representative Council; Oscar Duran, 
who is the executive director of the Municipal Housing Agency 
of Council Bluffs; and Michael Hendrix, who is the director of 
State and local policy at the Manhattan Institute.
    Witnesses are reminded that their oral testimony will be 
limited to 5 minutes. You should be able to see a timer on your 
screen that will indicate how much time you have left, and a 
chime will go off at the end of your time. I would ask that you 
be mindful of the timer, and quickly wrap up your testimony if 
you hear the chime, so that we can be respectful of both the 
witnesses' and the committee members' time. And without 
objection, your written statements will be made a part of the 
record.
    Mr. Banna, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

   STATEMENT OF GEORGI BANNA, DIRECTOR OF POLICY AND PROGRAM 
     DEVELOPMENT, THE NATIONAL ASSOCIATION OF HOUSING AND 
                REDEVELOPMENT OFFICIALS (NAHRO)

    Mr. Banna. Chairman Cleaver, Ranking Member Stivers, and 
members of the Subcommittee on Housing, Community Development, 
and Insurance, thank you for the opportunity to appear before 
you this afternoon. My name is Georgi Banna, and I am director 
of policy and program development for the National Association 
of Housing and Redevelopment Officials (NAHRO). NAHRO, which 
was established in 1933, is a member organization of 20,000 
housing and community development providers and professionals 
throughout the country. NAHRO members administer more than 3 
million homes for more than 8 million people.
    COVID-19 has stretched resources for public housing 
authorities and their co-residents to the maximum. The pandemic 
has only intensified an already-staggering need for stable, 
healthy, and affordable housing. Public housing meets these 
needs and is the only public affordable housing in our country. 
Public housing must be protected and public housing must be 
expanded. But like much of America's infrastructure, public 
housing needs significant investments to modernize and repair 
it.
    NAHRO estimates the backlog of needed repairs through our 
public housing stock is upwards of $70 billion. The pandemic 
has demonstrated the critical role that public housing plays in 
communities across the country. PHAs have used public housing 
to distribute food, healthcare, and other necessities of daily 
life to their most vulnerable community members.
    I would like to highlight three areas where PHAs have used 
public housing as a community hub. First, in the 21st Century, 
internet access is as much a basic utility as electricity and 
water. When schools transitioned to remote learning in Alabama 
last spring, the Opelika Housing Authority saw an immediate 
need for expanded internet service. Agency leadership bridged 
the digital divide by providing internet service access at no 
cost to residents. They built the new service into their 
operational budget.
    Recently, some flexibility has been provided by HUD to use 
operating funds to provide internet services to residents of 
public housing units. Additional flexibilities such as allowing 
utility allowances to include internet costs, along with 
additional resources, are needed.
    Second, low-income families across the country confront 
food insecurity and food deserts daily. Many PHAs look to help 
families access the food they need by partnering with local 
nonprofits and local governments to bring food pantries to 
families and seniors who need it most. The Tampa Housing 
Authority in Florida opened Meacham Urban Farm this past 
February. The garden spans nearly 2 acres and is expected to 
yield 30 dozen eggs per week and 60,000 pounds of produce per 
year. Residents of public housing in downtown Tampa now have 
greater access to fresh produce. PHAs need additional 
flexibilities and resources to expand access for residents.
    Third, PHAs are supporting the health and well-being of the 
people they house during the pandemic. This month, the 
Worcester Housing Authority in Massachusetts organized public 
health clinics to distribute the COVID-19 vaccine. Nearly 120 
Belmont Tower residents received their first dose. Housing 
authority staff reached out to residents directly to answer 
their questions and to escort elderly residents to the clinic.
    Housing Alliance and Community Partnerships, the reinvented 
Housing Authority of the City of Pocatello, Idaho, is led by 
NAHRO's President Sunny Shaw and a very dedicated team. Just 
like other PHAs, they continued to serve residents in their 
community throughout the pandemic, never shutting down 
operations. However, at one point in October, 14 of their 15 
staff members contracted COVID-19. While taking care of 
themselves, they continued to virtually check in with residents 
and maintain essential operations.
    In order to serve the residents and communities throughout 
the ongoing pandemic, PHAs need continued support and resources 
from HUD and Congress to protect public housing and expand its 
role as a community asset. In addition to needing more than $70 
billion in current public housing capital needs, new units must 
be built. Since 1999, almost 300,000 permanently affordable 
units were removed from the inventory of public housing units. 
Congress must show support for new affordable housing 
construction and fund the construction of at least 300,000 new, 
permanently affordable units.
    The Coronavirus Aid, Relief, and Economic Security (CARES) 
Act allowed HUD to make broad and sweeping statutory regulatory 
waivers. PHAs are using these waivers to serve residents and 
their communities with speed and efficiency. These agencies, 
particularly smaller agencies, will need continued flexibility 
to focus on outcomes. Reimagined inspection protocols, document 
requirements for tenants, and reporting needs will help 
agencies in the future just as they are helping them now during 
the pandemic.
    This is a watershed moment. It is time for bold, actionable 
resourced ideas, ideas that, when actualized, will stem the 
long-term impact of our current public health crisis. It will 
require the political fortitude of the Federal Government and 
the innovations of localities. I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Banna can be found on page 
32 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Banna.
    Mr. Gage, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

STATEMENT OF BRIAN GAGE, EXECUTIVE DIRECTOR, AKRON METROPOLITAN 
                    HOUSING AUTHORITY (AMHA)

    Mr. Gage. Chairman Cleaver, Ranking Member Stivers, and 
distinguished members of the subcommittee, thank you, as well 
as Chairwoman Waters and Ranking Member McHenry, for the 
invitation to testify.
    The Akron Metropolitan Housing Authority (AMHA) is a public 
housing authority accredited by the Affordable Housing 
Accreditation Board and recognized by the Department of Housing 
and Urban Development as a high performer for our stewardship 
of the Federal public housing and voucher programs in Summit 
County, Ohio. In March of 2020, our nation faced a public 
health emergency, and AMHA called upon our essential frontline 
employees to protect and serve the families living in our 
communities. We transitioned swiftly into a contactless, remote 
work environment with flexible schedules to ensure the safely 
of staff and residents. As health professionals focused on 
addressing the virus, AMHA and housing authorities across the 
country focused on meeting the immediate needs of residents in 
our developments.
    Unlike many property owners, public housing agencies are 
required to provide much more than just housing to a much 
different population. Most of the public housing population is 
older and many have a disability, or are suffering from 
underlying health conditions, and are therefore particularly 
vulnerable to the coronavirus. The charge of the public housing 
program is to not only provide safe and healthy homes for our 
families to live in, but also to coordinate the provision of 
other basic needs including the delivery of food, medical care, 
transportation, and personal protective equipment (PPE). Our 
families regularly call upon us to assist with their financial 
and mental health. Immediately after the onset of the national 
health emergency, AMHA was able to secure and distribute 4,800 
PPE bags and 70,000 meals to residents facing transportation 
challenges who did not want to risk their exposure on mass 
transit.
    Many senior citizens and families with disabilities found 
themselves without digital access, as many healthcare visits 
went virtual. Families with children needed connectivity to 
facilitate remote schooling options. We responded quickly by 
providing hotspots for families with students and providing 
earbuds and headsets to help them concentrate. We are now in 
search of resources to provide wireless access in all of our 
units.
    Partnering with Summit County Public Health, we provided 
six sites in the last month for testing and vaccination of 
individuals, including public housing senior citizens and 
individuals with disabilities. AMHA fostered and perpetuated 
relationships such as this one through decades of work and 
collaboration within the community. These partnerships are what 
makes public housing more than just housing.
    The funding that public housing agencies received under the 
CARES Act facilitated this level of response. On behalf of the 
residents of AMHA, the board of trustees, and myself, I want to 
express gratitude to the Members of Congress for providing 
these resources to respond to the pandemic.
    As we turn the page from response to recovery, there is a 
significant workload that will take months to address, while 
other greater capital needs will take years. While focusing on 
sanitization and emergency work orders, we accrued a backlog of 
routine maintenance items that we now must quickly address. 
This will result in a higher cost of operations as we progress 
through recovery, but it also provides an opportunity for 
housing agencies to expand our role as job creators. 
Unfortunately, the current funding formula calculation for 
public housing funds for the upcoming years does not 
contemplate this additional work and the opportunity to get our 
communities back to work.
    Some level of emergency funding similar to that provided 
under the American Recovery and Reinvestment Act of 2009 (ARRA) 
will be helpful for PHAs to address immediate emergency needs 
around the country prior to any larger housing infrastructure 
investment. Under ARRA, PHA used funds on projects that 
bolstered economic growth, created jobs, improved the quality 
of life for residents, and increased energy efficiency. In the 
time of recovery, it becomes important to take advantage of 
what our agencies do well. When considering legislation for 
infrastructure and recovery, Congress should leverage and 
utilize public housing agencies' decades of experience in 
creating jobs, caring for the most vulnerable in our 
communities, and operating public housing voucher programs.
    Since the start of the pandemic, operational changes that 
PHAs have implemented have demonstrated alternative but 
effective means of managing programs, some of which were 
previously not permissible, but are permitted by the CARES Act. 
Many of these waivers should be extended or made permanent 
instead of returning back to the ways of old without 
considering our lessons learned.
    I want to thank the chairman, the ranking member, and the 
subcommittee. I am available for follow-up questions and to 
provide guidance to the subcommittee and HUD on the best 
practices and the many ways that Congress and HUD can help 
residents and PHAs across the country to not only get through 
this pandemic, but to thrive long after it has passed.
    [The prepared statement of Mr. Gage can be found on page 43 
of the appendix.]
    Chairman Cleaver. Thank you, Mr. Gage, for your testimony.
    The Chair now recognizes Mr. Mohamud for 5 minutes.

     STATEMENT OF TAMIR ALI MOHAMUD, COMMISSIONER AND VICE-
 PRESIDENT, MINNEAPOLIS HIGHRISE REPRESENTATIVE COUNCIL (MHRC)

    Mr. Mohamud. Thank you, Chairman Cleaver, for the 
opportunity to testify today. My name is Tamir Mohamud, and I 
serve as the vice president of the Minneapolis Highrise 
Representative Council, the City-wide public housing highrise 
tenancy organization which represents the interests of over 
5,000 residents in 42 Minneapolis Public Housing Authority 
(MPHA) highrises. I am also a resident commissioner on MPHA's 
Board of Commissioners, the president of my resident council, 
and I serve on the Minneapolis Highrise Health Alliance.
    I was born in Mogadishu, Somalia. I worked as a high school 
history teacher. In 1990, the Somali government collapsed, and 
when the civil war erupted, it was a sad moment for all Somali 
people to see such tragedy where all institutions failed to 
function. I fled my homeland and was forced to live as a 
refugee in neighboring Kenya. There, I worked for the United 
Nations High Commission, providing English/Somali translation. 
Life in the resettlement camp was difficult. People lived in 
tents. It was crowded, lonely, and cut off from the outside 
world.
    In 2001, I moved to Minneapolis. I came to the United 
States to be close to family, for job opportunities, and to 
live the American Dream. The United States has a long tradition 
of welcoming people from all backgrounds and cultures and is a 
great place for people who must look to live outside of their 
home country. I lived with my daughter and her husband until I 
moved into the public housing highrise at 1515 Park Avenue 
South. I moved into public housing in order to have my own 
place and independence. Moving into my highrise meant becoming 
neighbors with a widely diverse community of people and it was 
the start of the opportunity to become more involved in my 
community. It presented me the opportunity to become a resident 
leader, all because MPHA provided me with a safe and stable 
home so that I could then focus on helping my community.
    My involvement in public housing has given me the 
opportunity to meet and work with many people from different 
backgrounds. In my own building, I have gotten to know many of 
my East Indian neighbors by working side by side in the 
community vegetable garden at our highrise.
    Public housing is a valuable resource to the City of 
Minneapolis, as it means safe and affordable housing for the 
members of our community who have the greatest need. 
Homelessness has grown in Minneapolis. We see tent cities 
springing up all around us and there are not enough shelter 
beds to meet the need. Public housing is one answer to the 
housing shortage.
    Public housing has also been a lifeline for my neighbors 
and me during COVID. MPHA provided food, hygiene products, and 
masks to residents when the pandemic hit. MPHA organized 
psychological testing throughout the pandemic and offered on-
site flu shots in the fall. This month, MPHA and the City 
Health Department began vaccinations in highrises, and today, 
nearly all of the first round of COVID vaccination clinics have 
been completed at all 42 highrises at MPHA.
    It is critical that public housing is preserved and 
increased. We depend on Congress to provide enough funding to 
preserve and expand public housing. It has failed in this role 
for too long. MPHA continues to seek production in the amount 
we will save or the funding we need to do improvements to our 
public housing units. Public housing has been central to my 
success in America. I hope you will preserve it for others in 
the future. Thank you for this opportunity to testify. I am 
happy to answer any questions you may have.
    [The prepared statement of Mr. Mohamud can be found on page 
61 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Mohamud for your 
testimony.
    Mr. Duran, you are now recognized for 5 minutes.

STATEMENT OF OSCAR DURAN, EXECUTIVE DIRECTOR, MUNICIPAL HOUSING 
                AGENCY OF COUNCIL BLUFFS (MHACB)

    Mr. Duran. Thank you, sir. My name is Oscar Duran, and I 
would like to first thank the subcommittee for this opportunity 
to testify today about the importance of our public housing 
program, and our nation's commitment to families who need this 
essential program.
    In my short tenure serving at a public housing authority, I 
have heard many opinions regarding the challenges and even 
modern relevance of administering a public housing program. And 
although I can say I have less than one year of service to my 
local PHA, I can confirm that the challenges are indeed real. 
Operating a public housing program is very tough. But then 
again, I would ask everyone to challenge themselves and to find 
and name a legal housing program or any social program out 
there that exists without operational challenges.
    I began my journey here in public service when I was 24-
years-old, when I was just a neighborhood advocate who wanted 
to make my neighborhood better. I spent countless hours with 
neighbors processing applications, loan applications, working 
with them to look at their credit scores, and advocating about 
how to just keep motivating to push forward to have a better 
living condition for their family. Little did I know that 15 
years in the future, I would one day get that privilege, to be 
able to serve in this role and continue to help families with 
housing.
    So, how does this relate to the relevance of public housing 
today? The answer is very simple to me. There is a common 
practice in private development of utilizing credit scores as a 
universal qualification for people who just want a decent home 
for themselves and their families.
    As a housing advocate, I regularly appreciate the design 
and accessibility of the public housing program, because as 
PHAs, we don't need to use credit scores to determine a human 
being's access to housing. And then, when you pair that with 
the rapidly growing under-supply of affordable housing across 
our country, and then the overreliance on the public market to 
ease our national housing needs, in my opinion, the public 
housing program continually demonstrates its vitality and place 
in our nation. It remains the single constant program available 
in many communities across our nation, which will house people 
regardless of their FICO score.
    For this primary reason, I would recommend and advocate to 
the Members of Congress and this great subcommittee to please 
continue to fight tirelessly to preserve this essential program 
and provide additional funds so we can continue to support our 
neighbors in need.
    In our PHA in Council Bluffs, Iowa, we have 295 affordable 
homes that we offer to our community. Now, that might not seem 
like a lot, but it has an impact on our community. Split 
between two public housing communities, these homes continue to 
demonstrate their worth and impact by housing over 300 
neighbors in our area, many of whom who are disabled, elderly, 
and near homelessness. And as such, maintaining these 
properties to the high standards that we would be proud to live 
in ourselves is of the utmost importance to us. Our capital 
improvement plan spans over 5 years into the future, and lists 
a ton of different strategic lists of repairs needed to 
maintain these facilities to serve our residents and the larger 
community.
    Now, like most PHAs, as you are going to hear today, 
operating these communities through the pandemic unearthed a 
variety of additional large-scale improvements needed to 
improve the lives of our residents. Just to name a few, we need 
additional personnel resources to aid residents in 
communicating to the outside world and obtaining additional 
supplies. We need an overhaul of our digital communication 
tools and standards and more features for added health and 
safety measures in our facilities. Any infusion of significant 
capital funding would allow our agency and other PHAs in our 
country to begin to properly address these findings that relate 
to the pandemic and continue to prepare our facilities and our 
neighbors, our residents to maintain a higher quality of life 
standards during this pandemic, any future pandemic or any 
other social crises in the near future.
    In pondering different ways our nation's leadership could 
continue to support PHAs, one policy that quickly comes to mind 
is another round of CARES waivers and public housing funds. We 
have already kind of alluded to that. And specifically on the 
waivers, in my mind, our PHA prides itself in continually 
receiving a, ``high performer'' designation, which directly 
attributes to our subsidy and capital funds allocations.
    Now, compare that with the fact that HUD has a lot of new, 
very aggressive, and very great programming, new changes, 
specifically new National Standards for the Physical Inspection 
of Real Estate (NSPIRE) inspection standards, new Section 3 
requirements, and new, overhauled capital funds program 
administrative standards, all of this is wonderful, but I feel 
that if we can have an additional waiver to maintain our pre-
COVID, Section 8 Management Assessment Program (SEMAP) and 
Physical Assessment Subsystem (PASS) scores, it will really 
help us, and it will be beneficial to be able to still go 
through the new inspection standards, adapt to the changes 
needed, and give us time to fix it without having to have those 
financial resources to serve our families.
    Thank you. I am excited to present today, and I welcome any 
questions you may have.
    [The prepared statement of Mr. Duran can be found on page 
39 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Duran. I have appreciated 
very much your comments.
    Mr. Hendrix, you are now recognized for 5 minutes to give 
an oral presentation of your testimony.

STATEMENT OF MICHAEL HENDRIX, DIRECTOR, STATE AND LCOAL POLICY, 
                      MANHATTAN INSTITUTE

    Mr. Hendrix. Chairman Cleaver, Ranking Member Stivers, and 
members of the subcommittee, thank you for inviting me to 
participate in today's hearing. My name is Michael Hendrix, and 
I am the director of state and local policy here at the 
Manhattan Institute. Along with my colleagues, we seek to 
advance freedom and opportunity in America's communities.
    The pandemic showed us the reality, the failed reality of 
public housing in America and the need for a better deal for 
Americans in need of a safe place to call home. Nowhere is this 
clearer than with the New York City Housing Authority, or 
NYCHA, the nation's oldest and largest public housing system, 
long held up as the greatest example of what government-led 
housing can achieve.
    Through the example of NYCHA, we must see how poorly-run 
local housing authorities are: first, failing to care for the 
well-being of their tenants; second, actively harming the 
health and safety of those under their roofs; and third, too 
often doing little to integrate residents into the broader 
economy of their community. These are not failures of funding 
alone, but inescapable flaws of public housing itself, which 
robs Americans of safe and equitable choices in shelter.
    NYCHA's example should be a warning to local housing 
authorities across the country. Whether the fault of Washington 
and its appropriators, the reality of public housing across 
America is that it is a social engineer's dream often turned 
into a nightmare for actual residents. We know that public 
housing routinely fails to provide for and protect the well-
being of its residents.
    In 2020, New York City's public advocate ranked NYCHA as 
the City's worst landlord, public or private, for the third 
year in a row. The rest of the country's public housing also 
consistently fails to provide for the well-being of low-income 
residents. No one can look at the public housing we actually 
have and say it is the housing we want. And more of the same 
failed ideas are unlikely to truly help those in need.
    This reality became clear in light of the failures of 
public housing during the pandemic of COVID-19, as well as 
ongoing struggles with lead, asbestos, toxic mold, and crime, 
among a host of other troubling woes. One of the deadliest 
places to be in New York City, in fact, during the pandemic, 
was in a New York City Housing Authority apartment. For far too 
many residents during the pandemic, public housing was less of 
a lifeline, and too often, more of a death sentence.
    This is not to question the intent of public housing 
authorities, but rather their reality and their results. Worse 
yet, public housing's legacy of segregation persists to this 
day, preventing residents from building equity or integrating 
into the broader community or economy. Far too much of today's 
public housing still bears the legacy of having trapped 
generations in poverty. The truth is that the typical household 
in public housing will come in poor and leave poor.
    Rather than trapping Americans in unhealthy, unsafe, and 
often segregated public housing, we should offer those in need 
an equitable and available choice in housing. Rather than 
losing out by moving out, housing supports should follow those 
in need and in search of opportunity. And we should question 
whether public housing is the right tool for answering calls 
for shelter injustice in this country today.
    The implicit subsidy provided to public housing's residents 
would likely be better used explicitly in their pockets, 
leaving them free to move into neighborhoods of real 
opportunity by their own choice, and with local housing 
agencies existing as resources rather than simply as landlords 
of last resort. While there is no guarantee that directly 
helping people afford decent housing will improve their lives 
overnight, we would surely be doing far better than doubling 
down on America's failed experiment in social housing. Thank 
you.
    [The prepared statement of Mr. Hendrix can be found on page 
49 of the appendix.]
    Chairman Cleaver. Thank you very much, Mr. Hendrix, for 
your comments.
    We will now begin our questioning, and I will recognize 
myself for 5 minutes.
    I have been accused, throughout my political career, of 
being ``Pollyanna-ish,'' so I want to put that aside just a 
little in terms of asking the panel a question. I have been 
around for a while. Mr. Green and I were among the Members, 
along with Chairwoman Waters, who went down into New Orleans 
immediately after the terrible flood of Hurricane Katrina. And 
we saw what had been done in that project, and then looked at 
what needed to be done.
    I think about this, and not only as I look at and recall 
Katrina, but back when we did the ARRA funding, it was just 
under a trillion dollars. It should have been more. That is 
another whole meeting that we can discuss. But we did something 
that had not been done in years, in decades, which is that we 
recognized that affordable housing was a valuable part of our 
national housing infrastructure and put into that affordable 
housing project $4 billion to address the capital needs of 
public housing.
    And if you look at what happened, I understand those funds 
generated an additional $12.5 billion in economic activity. So, 
here is what I am saying. Even if you don't like public 
housing, even if you don't like the government putting money 
into trying to help poor folks live in public housing, a $12.5 
billion injection into the U.S. economy as a result of working 
on eliminating the blight of public housing that, in and of 
itself, I think, would demand that any future infrastructure 
program should have something in there similar or superior to 
what we did way back in 2009.
    How many of you on the panel agree?
    Mr. Gage. Mr. Chairman, thank you for asking the question. 
I do agree. In Akron, we have $300 million worth of backlog in 
multiple projects. We can get people to work and repairing our 
inventory right away.
    Chairman Cleaver. Anyone else?
    Mr. Banna. I would agree as well, with the opportunity for 
the rehabilitation of the current public housing stock and also 
the opportunity to build new units. In many places, there are 
shovel-ready projects that are ready to go once the funding is 
available, which will help the community, and the economic 
stability of those communities.
    Mr. Duran. I would also concur. In Council Bluffs, Iowa, we 
had, pre-pandemic, 15 percent of our families at or below the 
poverty line, and 30 percent by and lower. The sheer 295 units 
we can offer is just not enough. We are doing, I feel, an 
exceptional job maintaining them, but we need to do something 
more. Meanwhile, the market is just responding to units that 
are only accessible [inaudible] by enough. So we absolutely 
would [inaudible].
    Chairman Cleaver. Anyone else? Well, thanks for your 
responses. Now, you have mentioned--I think it was you, Mr. 
Duran, who mentioned we had a backlog and we need to build new 
units. Up until today, we did build new units in New Orleans--I 
can't remember the name of that housing project. Mr. Green is 
about 30 years younger than me, so he will recall the name of 
the project that we looked at, and the time that we spent with 
twin sisters who had lived in the units together.
    But my question is, so far, all we have done, as you all 
know quite well, is one-for-one replacement. That is what we 
have been doing for decades, and I am wondering, and some of 
this is political, but some of this would be also in our local 
communities, how do we go beyond the one-to-one replacement? 
That is going to be a tough deal, particularly in local 
communities where they don't want any additional public 
housing.
    Mr. Duran. Fantastic question. One of the partnerships we 
are doing right now in our small community is with a group 
called--it is a local shelter. And we are talking about how we 
can get just four small units, four units that will be in an 
area, a part of town that we are not, and how can we help the 
poor, single parents who want to be housed in this type of 
public housing to truly transcend poverty.
    Now, what that means is it is going to be small pieces, 
units at a time, but what we need to also begin to show is that 
these little differences can begin to build a new model for the 
future of how to grow more affordable housing units in our 
community.
    Chairman Cleaver. Thank you, Mr. Duran.
    Ranking Member Stivers, you are now recognized for 5 
minutes.
    Mr. Stivers. Thank you, Mr. Chairman. I really look forward 
to working with you on a lot of these initiatives, and I 
appreciate your questions.
    The first question I have is for the folks who work in 
housing authorities, Mr. Gage, Mr. Duran, and Mr. Mohamud. The 
first thing I talked about is more flexibility. Several of you 
mentioned more flexibility. Do all of you agree that more 
flexibility for housing authorities would be a good thing, 
given that of our 3,300 housing authorities across the United 
States, they are all unique?
    Mr. Gage. Ranking Member Stivers, yes, I do agree with you 
that flexibility is important especially when trying to address 
local issues. Each City, from Kansas City to Columbus to 
Kenosha, has their own different issues that they have to deal 
with. Here in Akron, we have a different market than you have 
down in Columbus, so we have our own challenges here, and we 
would like to be able to customize our programs and have the 
flexibility to promote efficiency and effectiveness in serving 
our community.
    Mr. Stivers. Thank you.
    Mr. Duran, Mr. Mohamud, do you agree with that?
    Mr. Duran. I absolutely do, as well. The larger percentage 
of our families who utilize our public housing program, 
compared to our Housing Choice Voucher (HCV) program, are on 
really fixed incomes, a lot of elderly people, and disabled 
families, who actually wouldn't be able to utilize the housing 
choice voucher program because they have mobility issues. 
Really, we are the single point, aside from homelessness, which 
can house those families who wish to stay in their local 
communities. So, more flexibility for us to not be grouped in 
with different areas, because Omaha is our sister City right 
next door, with a very large PHA. We are also referred to as a 
PHA, a large one, but we don't have 18 towers; we have 2 
towers. So, I agree that more flexibility would be tremendously 
helpful.
    Mr. Stivers. Mr. Mohamud, do you agree with that as well?
    Mr. Mohamud. Yes, I agree.
    Mr. Stivers. Thank you. That is helpful.
    And I think each of you addressed it in your own way, but 
building self-sufficiency, is that something you aspire to in 
your housing authorities, and what are you doing to actually 
help with self-sufficiency and building self-sufficiency over 
time? What do you think of the idea like they have in the 
United Kingdom of allowing somebody who has paid rent for years 
and years and years to potentially gain some equity through the 
ability to start to live the American Dream and have 
homeownership? What do you think about those ideas? And in any 
order address--
    Mr. Gage. Thank you. I will go first and then defer to my 
colleagues. We are very big supporters in Akron of the Family 
Self-sufficiency Program. Last year, we graduated 17 families, 
giving out over $150,000 in escrow. We also are the recipients 
of a Jobs Plus grant that is helping one of our communities get 
people to employment, and make them more self-sufficient.
    The Expansion Act of a few years ago was a small move to 
expand family self-sufficiency. I think that could be greater, 
and expanded a little bit more, as well as the Resident 
Opportunities and Self-Sufficiency (ROSS) program and other 
programs that promote self-sufficiency.
    Mr. Stivers. That is a great answer. Thanks, Mr. Gage.
    To Mr. Duran and Mr. Mohamud, let me redirect you a little 
bit to something that Mr. Gage didn't mention. Do you have an 
issue with the benefits cliff where, as you are trying to build 
self-sufficiency, they can't build enough self-sufficiency 
before they lose their housing assistance because of the 
benefits cliff? Either Mr. Mohamud or Mr. Duran?
    Mr. Duran. Absolutely. The benefits cliff is extremely 
real. It is a delicate situation and conversation because I 
believe in family self-sufficiency and everybody's right to 
pursue homeownership. If that is what they want, then that is 
what they should achieve. But the reality is there are 
families, and I can think of 40 really quickly in my head, for 
whom that is just not where they want to go. They want to be 
able to age out and pass in peace in a safe, quality home in 
something like public housing.
    I think to make it a more holistic argument--
    Mr. Stivers. That gets back to flexibility, but today, too 
many folks in public housing have no option and no path to 
homeownership. That is the real problem right now, isn't it?
    Mr. Duran. Absolutely. It is a huge part of the problem and 
one that we are proactively tackling. Prior to arriving at MHA, 
we solidified a partnership with the Omaha Partnership 
Authority and Habitat for Humanity of Omaha to transition 100 
of their scattered site homes to first preference home-
ownership opportunities for families on the other side of the 
river. And I fully intend to build a similar program--
    Mr. Stivers. Thanks for that. That is great. That is a 
great program and helps generate great wealth for those 
families and helps them live the American Dream. I yield back. 
And let us do a second round, if it works.
    Chairman Cleaver. Thank you, Mr. Stivers.
    The Chair now recognizes Mr. Green of Texas.
    Mr. Green. Thank you, Mr. Chairman, and I do recall our 
visit to New Orleans with Chairwoman Waters, and my 
recollection is that it was the Desire Project, but there were 
several projects that we did and it may not have been Desire. 
So, that is my recollection. And while I appreciate you being 
kind about the age--
    [laughter]
    Mr. Chairman, this hearing is absolutely necessary and some 
of the evidence that we are receiving is overwhelming. The fact 
that seniors and people with disabilities, families with 
approximately 597,000 children comprise more than 37 percent of 
public housing households. That is a pretty significant number. 
And when I look at some of the other numbers--a $70 billion 
backlog needed for capital repairs, and more than 10,000 public 
housing units lost each year because of disrepair--it is 
obvious that this hearing is one that we absolutely should take 
to heart.
    And I remember the first time I heard the term, ``one-for-
one replacement,'' was when we were with Chairwoman Waters and 
she was--this was shortly after Hurricane Katrina. We were in 
New Orleans, and she was insisting on one-for-one replacement. 
And she has been consistently insisting upon one-for-one 
replacement. With losing 10,000 units per year, in great 
disrepair, and a $70 billion backlog needed to take care of 
these capital improvements, my point and my question is going 
to be a very simple one.
    The units are disappearing, but my belief is that the need 
is not disappearing. In fact, it seems to be increasing. Having 
been to Skid Row, having just looked at the evidence in my own 
city of people living under bridges, people getting tents and 
camping out downtown, people making some sort of lean-to so 
that they can have some degree of shelter, I am just very much 
concerned about what the solution is going to be ultimately to 
the units that are being lost.
    We talked about one-for-one replacement, but because of the 
lack of funding, that is not taking place, and notwithstanding 
the Faircloth Amendment, we still have a lack of funding to 
deal with. So with this said, let me just ask one of our 
persons who is an expert, Mr. Hendrix, what do we do given that 
the need is being enhanced and the units are being lost?
    Mr. Hendrix. Thank you, Congressman. That is a terrific 
question, and it is absolutely true that throughout this 
country, we need more housing, more housing of all types for 
people of all backgrounds and all needs. I think my only 
question is, should we have a one-size-fits-all approach of 
just public housing, or should we give local public housing 
authorities the flexibility they need to offer a variety of 
housing solutions for people. And should we be working with 
localities and municipalities to make it more flexible for more 
private sector, even naturally-affordable housing solutions to 
be offered, because the same barriers that exist to private 
market-rate housing being built, unfortunately also exist for 
public housing to be built.
    Mr. Green. Let me just share this with you, and I don't 
mean to be rude. But it looks to me like building these 
complexes, regardless of flexibility, requires dollars. It 
looks like there will have to be some money involved in it, and 
that is my concern. If we don't allocate the funds, we continue 
to lose the 10,000 units per year. And I have no quarrel with 
flexibility, especially if I am defining flexibility. But since 
I am not, it looks like money may be a part of the solution. 
Your thoughts on money as a part of the solution?
    Mr. Hendrix. The Obama-era Rental Assistance Demonstration 
Program is a key source for leveraging private resources. 
Because, as we all agree, there is a need for more resources 
for housing in America of all types. And leveraging those 
private-sector resources the Obama Administration created is a 
critical tool for public housing authorities.
    Mr. Green. It is critical, but we are still losing 10,000 
units per year, notwithstanding the good intentions of that 
program--
    I know that my time is up, Mr. Chairman. I just want to 
make this final comment. The greatness of America is determined 
not by how we treat people who live in the suites of life, but 
how we treat people at the bottom of life, children, and how we 
treat seniors in the twilight of their life. This is not what 
we want to see our country look like. I yield back. Thank you.
    Chairman Cleaver. Thank you, Mr. Green.
    The Chair now recognizes Mr. Posey of Florida for 5 
minutes.
    Mr. Posey. Thank you very much, Mr. Chairman, for holding 
this hearing today.
    Looking at this hearing and the legislation appended to 
this hearing, I am tempted to view this hearing as public 
housing, back to the future. And given the enthusiasm of some, 
it is as if public housing had never been tried in this country 
before. Obviously, it was tried, often with disastrous results. 
And while there may be many places where it was successful, 
many of us are old enough to remember that many public housing 
projects became poster children for urban decay, crime, and 
drugs. It's not the ideal place where you would expect anybody 
to prosper. We moved away from public production of housing to 
tenant-based housing that provided income to low-income 
families to purchase market-provided housing. I believe we left 
the public housing behind for tenant-based market programs for 
good reason. And we can, and we should certainly look to 
improve conditions that thwart affordable housing like 
crippling costs and increasing overregulation, and try to drive 
down the cost of housing, but I really don't think going back 
to the future with public housing is the answer.
    Some people don't want to hear this, but I tend to think 
that President Trump's economic policies, which resulted in the 
lowest minority unemployment rates in history and increased the 
economic value of every single person in the workplace because 
you had more job openings than you had people looking for work, 
were steps in the right direction to helping more people become 
able to afford the American Dream of homeownership.
    Mr. Hendrix, what does your research tell you about the 
cost-effectiveness of providing low-income housing with the 
public housing model versus the tenant-based model that 
currently dominates Federal assistance?
    Mr. Hendrix. Thank you very much for that question. One of 
the things that we have learned over time is that shifting 
towards a more modern rental-assistance programs helps more 
people and delivers better results. A great example of that is 
the Section 8 tenant-based voucher program. It is a more 
streamlined program that gets money directly to the people in 
need.
    Meanwhile, the public housing that we do have--take 
Philadelphia's Housing Authority, just 6 percent of their 
annual budget actually comes from tenant rents. The rest of it 
has to come from subsidies somewhere, and increasingly it has 
been at higher and higher levels of government and even that 
has never been enough. The truth is, there will never be enough 
dollars for the public housing that we have. It wasn't enough 
in the 1950s, and it is never enough today, so we need to look 
to better, more modern approaches. We started doing that 
decades ago. We should not backtrack on the advances and gains 
that we have already made.
    Mr. Banna. If I could just jump in?
    Mr. Posey. Could you comment on how regulations are 
currently driving up the cost of affordable housing and how 
much the regulations add to the cost?
    Mr. Hendrix. In the case of a City like San Francisco, the 
cost of regulation, almost a regulatory tax, easily adds 
hundreds of thousands of dollars per unit that is built. And by 
the way, that also raises the cost of building affordable 
housing units. It can add hundreds of thousands of dollars, and 
up to a decade of delays to the cost of those units. And it 
means that we have a shortage of anywhere from six to seven 
million units across this country. Again, if that applies to 
private housing, it surely applies to public housing too. And 
we can work, even at the Federal level, with localities to 
loosen those regulations so that we can have more housing for 
more people where there is demand.
    Mr. Posey. Yes. We have had committee hearings on this 
before, and kind of tried to offer some kind of a Federal 
carrot, if you would make housing more affordable for people. 
How do you think we would best convince local governments to do 
that?
    Mr. Hendrix. First of all, just providing information 
helps. I would also state there is a bipartisan Quimby Act that 
has been discussed for quite some time now. I would say, too, 
having a race to the top where localities and jurisdictions can 
compete for resources and demonstrate that they are doing 
everything they can to increase the availability and 
affordability of housing so that you can not only provide those 
carrots, but also celebrate those jurisdictions that are not 
being incredibly exclusive or keeping people out who want to 
live in neighborhoods of opportunity, which include those who 
are voucher holders as well.
    Mr. Posey. Is there a database available, readily 
available, that shows the added non-value-added cost of 
housing?
    Mr. Hendrix. HUD has some data, but there is much work to 
be done.
    Mr. Posey. Thank you. I yield back.
    Chairman Cleaver. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Florida, Mr. 
Lawson.
    Mr. Lawson. Thank you very much, Mr. Chairman. It is really 
an honor to be on this subcommittee, and I would like to 
welcome all of the witnesses to this panel.
    I have a unique-type situation, and what I mean by that is 
that for many years I was involved in college coaching. I 
recruited in Chicago, New York, Atlanta, and Miami, and most of 
the time we were recruiting in housing facilities, housing 
projects. So, I have been to a lot of them over the years, 
quite a few, and I have seen the conditions, and I always 
really wanted to see if there was something that I could have 
done to help out.
    So my question today is to all of the panel, Public housing 
is an important asset to communities across the nation and in 
the home of millions of American seniors, people with 
disabilities, and families sharing decades. However, Congress 
has underfunded public housing for some reason or another. 
Today, it is estimated that there is a $70 billion backlog of 
capital needs for our public housing stock. Each year we lose 
about 10,000 units of public housing due to this disrepair. 
That is, the 10,000 affordable housing units that could have 
prevented evictions and homelessness of 10,000 households are 
gone. Without an investment in public housing infrastructure, 
these are important assets and the Federal dollars that have 
gone into building or preserving them will be a huge loss.
    Due to the lack of Federal investment in public housing, 
families are suffering from minor to serious maintenance issues 
that have sometimes caused health hazards. What is the human 
cost of not repairing public housing infrastructure? I have 
seen it over and over and over again in the big cities when I 
was coaching. In my district, I still look and see some of the 
same type situations that still exist.
    And so my question to the panel is, please give me your 
opinion on what is the human loss? And also, I want to say one 
other thing. I know my own timeout. I have been thinking about 
doing housing IRAs for people living in public housing to be 
able to save money on a tax-free basis to be able to eventually 
come out of public housing. I know I have said a whole lot, 
leaving you with limited time to respond, but you all are 
welcome to comment on it.
    Mr. Banna. I would like to jump in. Excellent question, 
Representative Lawson. Absolutely. We don't believe public 
housing is the sole solution, but it is the fabric of our 
affordable housing network that needs to be preserved, and 
needs to be solidified going forward. The families who live in 
public housing need the commitment from Congress and from the 
Administration to find and bring those units up to a modern 
standard.
    Absolutely, vouchers are great, and we want to see an 
expansion of the voucher program, however, there are not enough 
available units to utilize the vouchers as readily in many 
communities as there are needed, but public housing is there. 
It is hard units that are locally owned. And so absolutely, the 
local communities need to decide and have the option, actually, 
to make the decisions of what is the best affordable housing 
for their community, and public housing can be one of those.
    We are talking about housing that fits into a local 
community. We are not putting highrise units into single-
family-home communities. Public housing can fit into the 
community through single-family, duplex, or townhouse, row-
house styles. So, the public housing can be modernized to fit 
into local communities, and that is what must be done and must 
be committed to be done.
    Mr. Lawson. Would anyone else care to comment? I have about 
50 seconds left.
    Mr. Duran. Yes, Representative Lawson, Oscar Duran here. I 
am really grateful that you asked about human law. The reality 
is for me and my experience is the challenge is a lot of 
judgment goes towards specifically into the housing program and 
the human law, in my opinion, in answer to your question, in 
the multiple amount of housing programs and strategies to make 
a holistic pattern to look and serve every human and not leave 
anyone behind. I think that public housing is usually judged as 
a program because, unfortunately, it puts the amount of 
segregation and poverty in our current base and in concentrated 
poverty.
    I get concerned with the idea of just saying, how do I take 
some of my elderly families who can't access units, so they 
don't want it, and I have to give them a voucher and now I just 
don't have to look at their poverty.
    We need a program like public housing, like HCV and other 
tools that we don't know about yet, to serve holistically our 
entire community. Thank you, Congressman.
    Mr. Posey. Thank you.
    Chairman Cleaver. Mr. Hollingsworth from Indiana is now 
recognized for 5 minutes.
    Mr. Hollingsworth. Good afternoon, and I really appreciate 
everyone joining this great hearing. Affordable housing is 
something I have been passionate about since long before I came 
to Congress, but I have grown even more passionate about it 
while in Congress. Increasing affordable housing access has 
been a top priority. And, in fact, although it was mentioned, I 
think after Mr. Posey's questions earlier, I was the one who 
introduced, with our former colleague, Mr. Heck, now Lieutenant 
Governor of the great State of Washington, the Yes in My 
Backyard Act, which passed the House last year with strong 
bipartisan support.
    It is my fervent belief that affordable housing is an issue 
that impacts rural Americans, suburban Americans, and urban 
Americans. And the answer to how do we make housing within 
reach of very American family, it is ultimately to increase the 
supply of housing to make sure that more housing can come 
online in a wider variety of areas and a wider variety of types 
of housing.
    And so, Mr. Hendrix, I wanted to focus on you for a second, 
because something I have continued to hear in my conversations 
across the district with home builders and my conversations 
across the district with those who want to buy homes is, gosh, 
it feels like the regulatory barriers at the local level are 
really inhibiting supply growth, and thus we are seeing in an 
increasing demand environment, crises escalating out of control 
of American families. Talk to me a little bit about what you 
are seeing in terms of local regulatory control and barriers to 
entry?
    Mr. Hendrix. Congressman Hollingsworth, that is an 
excellent question. I couldn't agree more that relative to the 
demand that we have for housing in America, supply is just not 
keeping up. And more often than not, it is because of local 
limits on where and how and how much you can build of housing.
    And as I have said before, this applies not only to private 
housing, but to public housing too. These regulatory barriers--
among them land-use and zoning rules, but also local impact 
fees--prevent millions of new houses from being built across 
this country. And these are not just sticks, stones, and 
bricks. These are homes, places for people to call home, to 
build a new future, to gain equity, something that you don't 
get in public housing, and to be able to actually provide a 
roof and a shelter for their families and to have a future.
    These regulatory barriers can easily add hundreds of 
thousands of dollars to the cost of building a new home. And 
this is something that local jurisdictions should take the lead 
on fixing, but States and even government can help provide 
incentives and information, and in the case of States, take the 
lead in saying, regulate this and then go no further. And this 
is absolutely critical for our growth and for fighting 
inequality in America. This should be a bipartisan agreement.
    Mr. Hollingsworth. Mr. Hendrix, I couldn't agree more, and 
certainly in my district, I hear about this every single day. 
We have seen great disparities in outcomes, and frankly, for 
families just by the difference in regulatory environment, one 
county compared to the next. And I tell people all the time, we 
don't have an inability to build homes in this country. We have 
restrictions that are keeping us from exercising more of that 
ability to build homes.
    You wrote a recent article, I think it was in Bloomberg, 
talking about making zoning hyperlocal. Forgive me for not 
knowing, and hopefully educate us a little bit. What do you 
mean by making zoning hyperlocal?
    Mr. Hendrix. What I mean is that individual streets or 
blocks could be designated to have the freedom to increase 
housing where there is demand and where people want it. Right 
now, these decisions on what is called upzoning, taking zoning 
restrictions and increasing the amount to be built, are often 
made at a community level, and various community members may 
fear the cost of increased traffic, even though at the 
individual level, individual property owners are better off. 
And it also allows for greater fairness in communities when we 
add more housing.
    So giving individual streets or blocks the freedom to be 
able to increase the value of their property, to add more units 
where there is demand. There is an incredible opportunity in 
that just being able to add an accessory to a unit in a 
backyard garage apartment could increase housing in high-demand 
places like California.
    Mr. Hollingsworth. Yes. And just to be clear, because I 
want to make sure everyone understands, you are not talking 
about, hey, this block could say, let us allow a chemical plant 
to build right here. You are not talking about the release of 
all zoning restrictions being made. But instead, allowing for 
more upzoning within specific boundaries within specific 
parameters, right?
    Mr. Hendrix. That is right. The same standards apply. The 
same nuisance rules apply. This is saying, we want more of the 
housing that we love in our neighborhood.
    Mr. Hollingsworth. Yes. And this is a great opportunity for 
every American family to decide if they want a little bit 
denser environment around them, more locally, more clearly 
related to them. So, I thank you for that approach. I am going 
to send around this article for my colleagues to read. Thank 
you for being here, and have a great rest of your day.
    Mr. Hendrix. Thank you.
    Mr. Hollingsworth. I yield back.
    Chairman Cleaver. Thank you, Mr. Hollingsworth.
    The Chair now recognizes the gentlewoman from Iowa, Mrs. 
Axne.
    Mrs. Axne. Thank you so much, Mr. Chairman, and thank you 
to the witnesses for being here.
    Mr. Duran, I especially want to thank you for the work that 
you have done in keeping people in my district in Council 
Bluffs with a roof over their heads during this really 
difficult time. Of course, the pandemic has been the worst time 
to put people out on the streets. And as you are probably 
aware, research has found that the eviction moratoria reduced 
COVID deaths by 11 percent. I think that is a great statistic 
that we need to really be taking into consideration about how 
important it is to keep a roof over people's heads, and we 
could have even done more.
    I know what you have done, and for folks like you it hasn't 
been easy, and that you can't help everyone who needs it. But 
so many Iowans truly do appreciate what you are doing. So I 
just really first wanted to start by asking, what is the 
number-one thing that we could be doing to support you in 
helping people find housing?
    Mr. Duran. We need more collaborative aspects as a 
community. We need more partnerships with our fellow agencies, 
or providers, or for-profit developers. We talk this game as a 
community that we will work together, but when the brick hits 
the road or whatever that saying is, we fail to really make a 
consistent pattern together. And I'll give you an example: due 
to the pandemic, we had to stop doing inspections. And we are 
starting to get a lot of roaches and bedbugs, and we are trying 
to get them under control, but we have some elderly residents 
who can no longer get care from their providers because they 
don't want them to come in with the infestation. But the 
reality is some of our families utilizing the public housing 
program now need dependent living, not independent living. But 
there is nowhere and no partner where I can send them.
    So the biggest support we really could have is, of course, 
always going to be financial, but we need a more collaborative 
effort across our different agencies and partners in the 
community to really fix and address these systemic poverty 
issues for every facet of every person in our community.
    Mrs. Axne. I appreciate you bringing that up. And of 
course, having a strategic, unified approach to it is going to 
move us a lot further. So, that is a really great point that we 
haven't spent as much time talking about in the Financial 
Services Committee, so I appreciate that.
    I do know that nationally, only one in four people eligible 
for housing vouchers actually gets one. Can you walk us through 
the resources you have to help Iowans find housing right now 
and how does that compare with the demand that you are dealing 
with?
    Mr. Duran. Absolutely. The two biggest ones, and now we are 
speaking about our housing choice voucher program. We have what 
is called a Family Self-Sufficiency (FSS) Program. We don't 
have a lot of participants. We have had the majority graduate. 
The best we can do right now with trying to build a good 
relationships with the landlords is to continue to welcome them 
and ask, how can we support you, offering more opportunities 
for our participants? And so, that is all we can do right now.
    But I can tell you there is a shortage, and so we had to 
change our income standards as well, because one of the things 
that we did in December so that people could have a larger 
amount to look for just two and three bedroom units, in our 
county, I had over 80 families who, after being 16 months on 
the waiting list, got there and there was no housing stock 
available for them. And it really, literally broke my heart 
that there was nothing available. We quickly tried to partner 
with our surrounding PHAs to see if we could port them out, but 
they, too, had a backlog.
    So as others, like Mr. Hendrix, just pointed out, there is 
a dire need for this housing across-the-board, but 
unfortunately, all of the development we are seeing is for a 
specific AMI, and they call it affordable housing, but it is 
129 AMI and up, not our low-income populations. Sorry. My 
tangent.
    Mrs. Axne. No, no, no. Listen, I appreciate that, and I 
know that you have a smaller housing agency. And are there 
things that make it even more difficult, from the area that you 
are trying to help with folks and the size of your agency? And 
could we be more focused on that?
    Mr. Duran. Absolutely. And I am going to say that we are at 
the max, because we only have two buildings, two public housing 
communities, with 295 vouchers between them, with zero studios 
and one-bedrooms. That means we have no families with children 
in our thing, not by design, but by sheer size. Where are the 
low-income families living who need programs like ours? Where 
are they? We know they need the assistance, but we don't have 
the resources available to build more low-income housing for 
them. And so, that is kind of the next step, we really need to 
say, how do we talk about that housing shortage for those 
different family sizes?
    Mrs. Axne. I appreciate that, and I think that is another 
reason why we also need to address temporary housing as part of 
this whole structural piece as well. Lastly, though, I know you 
have B-Link in Council Bluffs which, for those of you who 
aren't aware, this is a community-based internet service. Has 
that been helping people that you are serving?
    Mr. Duran. A little bit. It [inaudible] keeping our 
[inaudible] so we invested in our [inaudible] in my testimony. 
We could not spend the [inaudible] amount for our public 
housing community, so it is not the best, but that is one of 
the big demands [inaudible], better signal [inaudible].
    Mrs. Axne. I appreciate that. Thank you so much.
    I yield back.
    Chairman Cleaver. Thank you, Mrs. Axne.
    The Chair now recognizes the gentleman from Texas, Mr. 
Taylor, for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate that. Mr. 
Hendrix, I really appreciate your perspectives on this as I 
think about my own private career in commercial real estate. I 
saw oftentimes where zoning restrictions, requirements, drove 
up the price of housing. And literally in some communities 
drove pricing to the point where people who worked for the 
city, for example, police officers, literally couldn't live in 
the city that they were serving because prices had been driven 
up by zoning laws that were well-intended, but over time just 
drove up prices. And then, there is literally no affordable 
housing. And when I say affordable, I don't mean for low-
income, I mean for medium-income families.
    As you think about this at the Federal level, and you have 
already given us some ideas on this, does it make sense for the 
Federal Government to continue to subsidize housing in 
communities that have driven the cost of housing to the point 
that no one there can afford it?
    Mr. Hendrix. It is absolutely a fair question to ask if we 
are sending community development block grants to communities 
that will really only allow housing for those who, say, are in 
six figures or more. Is that really what we should be 
supporting? Is that really creating communities of opportunity?
    As some of my fellow witnesses have said, if you are having 
exclusive housing communities, that means that providing 
vouchers to somebody, providing money for more vouchers will be 
ineffective. So while we look to provide more support directly 
to the people who need it, I would also encourage us to look at 
how we can allow flexibility to add more housing so that a 
voucher can meet shelter needs in the marketplace.
    Mr. Banna. And I think to solve that issue, one of the 
options is public housing that is already owned locally, 
affordable housing, permanent affordable housing. Vouchers, 
again, we need to fix the stock issue and make sure there are 
more units. And to get there, we have current units in place. 
They need to be invested in because we know those will be 
available for the police officers, for the teachers, for the 
low-income families in the community so they can live in the 
communities where they work, where they shop, and be a strong 
economic backbone to that community.
    Mr. Taylor. I appreciate that perspective, but again, the 
concern is, are we, as Congress, subsidizing and encouraging a 
zoning strategy which then drives the housing stock to the 
point that the housing authority is the only place to get it? 
And so, you are literally helping create this environment which 
makes it prohibitive to build this stock, which then drives out 
lower-income people from the community where the only place 
they can go is a housing authority.
    And I am not sure that is really just. To me, what is just 
is having a level playing field. I am fortunate to live in 
Plano, Texas, where we have relatively straightforward zoning 
requirements and it is relatively inexpensive to build new 
space. And that has been a tremendous recipe for success for my 
community. We have been very economically successful. There 
are, in fact, lots of new companies, and they continuously cite 
the low cost of housing as one of the biggest--it's not the 
number-one thing they say, but it is certainly on the list of 
things. It comes up over and over again, hey, you have 
affordable housing.
    But the reason we have affordable housing--we have land 
like everybody else does--is because we have reasonable zoning, 
where there is cooperation. And again, I just worry about 
creating the wrong incentives that say, oh, you have created 
zoning that makes it really expensive. We are going to throw 
extra money to you because you have a real housing problem. And 
they have a housing problem, but it is not the market that has 
created that. It is because of zoning decisions that are made 
by the leaders there.
    Mr. Hendrix. And speaking--
    Mr. Taylor. Mr. Hendrix, I will give you--
    Mr. Hendrix. --of the native of North Texas, I appreciate 
the natural affordability of North Texas and the decisions that 
they have made. Look, being able to not just have public 
housing be a housing of last resort or be the only choice that 
is available to people, I think is absolutely critical. 
Investing in more housing and more housing choice is the answer 
to creating more housing opportunity in this country. Whether 
you buy or rent, you should be able to know that, as one of my 
fellow witnesses here said, it is not just housing that is 
suffering from, potentially, roaches and bed bugs that is your 
only choice available, but a choice that is in the private 
sector, is in the market, and is in places of opportunity, 
neighborhoods of opportunity is absolutely critical.
    Mr. Taylor. Thank you, Mr. Hendrix.
    Mr. Chairman, I yield back.
    Chairman Cleaver. The gentleman yields back.
    All of the members of this subcommittee are vital, and I 
appreciate all of the testimony that you have given today, 
whether you live in public housing or not. I am also very 
pleased that the next gentleman, who is new to the committee, 
Mr. Torres from New York, also, like three others of us, grew 
up in public housing and brings a lot of information 
experientially to the table.
    The gentleman from New York, Mr. Torres, is now recognized 
for 5 minutes.
    Mr. Torres. Thank you, Mr. Chairman. I would not be in the 
United States Congress were it not for public housing and the 
stability it gave me and my family. So the subject of public 
housing strikes close to home for me. I am a product of the New 
York City Housing Authority, which is the largest provider of 
affordable housing in the United States. If NYCHA were a city 
unto itself, it would be the largest city of low-income Black 
and Brown Americans in the United States.
    Despite the critical safety net that it provides, NYCHA has 
been so savagely starved of funding at the hands of the Federal 
Government, that it has $40 billion worth of capital needs. I 
have seen children who have been poisoned by lead, who have 
sustained brain damage that will haunt them for the rest of 
their lives. I have seen senior citizens who, in the cold of 
winter, have left their ovens on, risking death from carbon 
monoxide exposure in order to get the barest amount of heat in 
their apartments.
    These are but a few examples of how the Federal Government 
has endangered the lives of public housing residents. Nowhere 
has the Federal Government shown a greater disregard for human 
life than in public housing, where tenants often languish in 
conditions of mold and mildew, leaks, lead, vermin, and rodents 
with no consistent heat and hot water in the winter.
    My first question is for Mr. Banna. What is the overall 
capital need for public housing in the United States?
    Mr. Banna. Actually, that's an excellent question. By our 
calculations, and using HUD data and HUD formulas, we gather it 
is about $70 billion, and probably greater at this point.
    Mr. Torres. You said $70 billion?
    Mr. Banna. $70 billion, yes.
    Mr. Torres. $70 billion. And how much do you receive in 
capital funding from the Federal Government?
    Mr. Banna. It is in the high $2 billions for all housing 
authorities across the country in the last few years, and the 
annual accrual rate that HUD determined was $3.4 billion per 
year.
    Mr. Torres. You said about $2 billion?
    Mr. Banna. $2.7-, $2.8 billion.
    Mr. Torres. $2.8 billion, okay. So, you have a capital need 
of $70 billion, yet you only receive $3 billion in capital 
funding from the Federal Government? And is it fair to say that 
the capital need is so overwhelming that only the Federal 
Government realistically has the funds to address it?
    Mr. Banna. Yes. Due to the disinvestment and the lack of 
funds over a number of years and decades, we believe it is the 
responsibility of the Federal Government and Congress to fund 
that and reinvest in public housing.
    Mr. Torres. Public housing is primarily regulated by the 
Federal Government, primarily funded by the Federal Government, 
primarily established by Federal law, the Housing Act of 1937. 
Is it fair to say that public housing is therefore a Federal 
obligation?
    Mr. Banna. I think that is fair. The Federal responsibility 
for public housing is there. Housing authorities are working 
very diligently to improve conditions and maintain their public 
housing using any resources they have available to them at this 
time, but they need the Federal Government to step in.
    Mr. Torres. There is a sense in which the Federal 
Government has the same responsibility for public housing that 
a private landlord would have for private housing. And what 
would happen if a private landlord did to his privately-owned 
housing what the Federal Government has done to public housing? 
What do you think would happen to that private landlord?
    Mr. Banna. Probably, in most jurisdictions, they wouldn't 
be allowed to rent that unit.
    Mr. Torres. They would probably face civil and criminal 
penalties. And yet, when the Federal Government endangers the 
lives of public housing residents, there are no consequences. 
There is a double standard. The Federal Government has the 
resources. We invest well over $100 billion annually in 
housing. Do you know where most of those housing dollars go?
    Mr. Banna. There are a number of programs. The voucher 
program does receive considerable funding. Public housing does 
receive funding, just not enough funding at this time.
    Mr. Torres. Let me answer that question for you. It is the 
mortgage interest deduction, about $100 billion a year, which 
is more than the capital needs of all of the public housing in 
the United States. So the Federal Government, via the mortgage 
interest deduction, is willing to generously subsidize 
homeownership for a wealthier population, but has not been 
willing at all to properly fund public housing for poor people 
of color.
    And it is worth noting that the systematic defunding of 
public housing is a bipartisan tradition. It has been defunded 
under both Democratic and Republican Administrations and under 
both Democratic and Republican Congresses. The defunding of 
public housing is a textbook example of starving the beast. You 
defund public housing, thereby causing it to fail, and you 
thereby claim that the failure is the inevitable result of 
government incompetence, and government mismanagement.
    Do you share my view that the humanitarian crisis in public 
housing is primarily a consequence of Federal disinvestment?
    Mr. Banna. I do, and I think now is the time to change 
that.
    Chairman Cleaver. The gentleman's time has expired. Thank 
you very much for your response.
    The Chair now recognizes the gentlewoman from Ohio, Mrs. 
Beatty, who is also the Chair of our Subcommittee on Diversity 
and Inclusion, as well as the Chair of the Congressional Black 
Caucus.
    Mrs. Beatty. Thank you so much to my chairman, and also to 
our ranking member. I don't think I could have planned a better 
segue into my comments. I am going to have one question, but I 
am going to drop a question to make a comment after listening 
to Congressman Torres.
    We all get to this committee in a variety of ways as we are 
talking about public housing, some, as you have heard, because 
they grew up in public housing. I worked in public housing and 
as a part of the movement. But what is interesting is that 
after listening to Congressman Torres, I need to tell my story.
    My mother wanted to live in public housing when my father 
was serving in the war, but his pension to her with two babies 
was too much. And it was predominantly White and it was Desoto 
Bass. It was the best place we had ever seen. It was brick. It 
had beautiful shrubberies around it. It had a front door and a 
back door, and it was amazing. And we were denied to live in 
public housing.
    Fast-forwarding as I became a young adult, my first job was 
at Dayton Metropolitan Public Housing. And I can tell you over 
a 25-year period, it didn't look the same. And it speaks to all 
of the things that Congressman Torres and others have talked 
about. So when I think about the rich history we have, and I am 
going to date myself, this is not new. If you go back to 1966, 
in Chicago with the Housing Authority and HUD was sued for 
alleging that public housing had been built purposefully to 
keep Black families segregated from the White neighborhoods.
    And then, less dollars were put into it, and it became a 
stigma to live in public housing. Some of the best and 
brightest individuals I know were my friends, and I look to 
this committee. We have chairmen, we have Members of Congress 
who grew up and lived in public housing. So I guess when I look 
at Economist Raj Chetty, who found in his Moving to Opportunity 
experiment that a child's long-term economic outcome is tied to 
a Zip Code, we do disservice oftentimes to that individual. So 
when we cut funds, when we don't make investments in public 
housing, it gives me great pause to ask why?
    Now, let me go to my question, and this is for you, Mr. 
Gage. Over the past several years, the Columbus Metropolitan 
Housing in my district has been converting their public housing 
units to project-based vouchers through the Rental Assistance 
Demonstration (RAD) Program. In your streamlined annual PHA 
plan for 2020, your housing authority said it was evaluating 
its public housing properties to convert them to rent. Why 
would housing authorities such as yours look to converting its 
public housing to project-based housing through RAD? What are 
the benefits for it, and how much of your 4,300 public housing 
units do you anticipate converting?
    Mr. Gage. Thank you, Representative Beatty. We did go 
through that analysis and we are finalizing it right now. We 
looked at it really because it was the only option to 
recapitalize. Capital funds were dwindling. There is no public 
housing production program. The only production program that 
exists, the only avenue, is through the Low-Income Housing Tax 
Credit Program. So if we are talking about flexibility of 
options, right now we only have one option and that is to pair 
with the Low-Income Housing Tax Credit Program and utilize RAD 
conversion.
    So given that that is kind of our last resort of how to 
take care of these public housing properties, we did that 
analysis and we found that there was a handful, five or six, 
especially since the new legislation passed with the 4 percent 
floor on tax credits, that actually kind of worked, doing a 
recapitalization under the RAD program. But there is a 
substantial subset, probably more than half of our portfolio, 
that won't even work under that scenario and it is because in 
order to work with the 4 percent tax credit program, you need 
to have high property values like you do in Columbus and like 
you do in large cities so you can access the acquisition 
credits. And in Akron, and in rural areas with low acquisition 
costs, you can't access those 4 percent credits and really make 
it work.
    Mrs. Beatty. Okay. I yield back. We need to have further 
discussions about how we fund and what we should do in Congress 
for public housing, because we know we still have a wait list. 
We still have people who are trying to get Section 8 and 
haven't been able to get it, and consequently, are still in 
public housing.
    Thank you, Mr. Chairman.
    Chairman Cleaver. Mr. Steil is now recognized for 5 
minutes.
    Mr. Steil. Thank you. Thank you very much, Chairman 
Cleaver, and I appreciate you having today's hearing, and 
having me on. I want to thank Chairwoman Waters and you, 
Chairman Cleaver, for holding today's hearing. And I want to 
state that we share the goal of ensuring that every American 
family has a safe place to live in our community and a job and 
opportunities. And even before the pandemic, what we really saw 
was housing and how vitally important it is to communities 
across the country.
    I have said and I have some concerns maybe about the 
specific focus of this hearing being just public housing. It is 
not clear to me that public housing is an effective lifeline 
for a lot of our struggling families across the country.
    Mr. Hendrix, you wrote in your testimony that the lived 
reality of public housing across America is a social engineer's 
dream turned nightmare. Could you add a little color to what 
you mean by that?
    Mr. Hendrix. Thank you very much for the question. 
Unfortunately, just looking at the example of New York City's 
Housing Authority, which is in the back yard of the Manhattan 
Institute, really illustrates that. You have housing 
administrators who provide housing that one tenant described in 
a lawsuit later filed, ``resembled a Third World country.'' 
They deal with toxic mold and asbestos. They are not kept safe. 
They are not kept healthy. Their children are poisoned with 
lead.
    This is something that certainly is part of the deferred 
maintenance and the backlog. We talk about billions of dollars, 
but these are hundreds of thousands of lives that are also at 
risk here. And the fact is that this is a problem, not just of 
money, but of actual lack of care, a lack of care by NYCHA, and 
this is not just my opinion. This is the opinion of judges. 
This is the opinion of the Federal Monitor. It's the opinion 
even now of the new chairman of NYCHA, and we need to take 
those warnings seriously because they represent the actual 
lived reality in the largest public housing complex and project 
in America.
    Mr. Steil. So to dig in, I have heard others say that 
public housing in particular, not other aspects of housing, but 
public housing has been a lifeline during the pandemic. Do you 
think that is an accurate statement?
    Mr. Gage. Actual public housing in New York was more likely 
to lead to you getting a case of COVID-19 and more likely to 
leave you dying of COVID-19 than not living in public housing. 
So I am not sure that is entirely fair, and it is not just 
catching it, being hospitalized, and potentially dying of 
COVID-19 that was a threat. It was everything else that came 
with it. NYCHA administrators just stopped keeping up care for 
apartments that were barely being paid for before. Elevators 
just simply stopped working, ventilators weren't repaired, 
pipes continued to leak. Some pipes, by the way, in NYCHA 
apartments have been leaking for 30 years and--
    Mr. Steil. So, there are a lot of examples. It sounds like 
you and I share a lot of concerns about public housing. Another 
question is, how do we help people who are in need in our 
community. How do we make sure people have safe, affordable 
housing that allows them to live a productive life, to live out 
the American Dream? I look at some other opportunities that are 
out there in large part thanks to the Trump/Ryan tax reforms 
that we saw, in particular, what I call the opportunity of 
Opportunity Zones that we are seeing starting to build up 
across the country.
    Can you talk a little bit about how Opportunity Zones can 
help encourage more affordable housing, in particular in some 
of our most challenged neighborhoods across the United States 
as an alternative to what I view as the old model of public 
housing?
    Mr. Gage. That is right. What you are trying to do is get 
more housing to pencil out. So by decreasing the tax burdens 
that come from investing in low-income communities as the 
Opportunity Zones do, and decreasing that tax burden not just 
over 1 or 2, but 5 or 10 years or even longer periods of time, 
that means that more affordable housing can easily pencil out. 
This could be simply straight-up affordable housing. It could 
also just be smaller microunits. Whatever it is, we are making 
it more profitable and more available to build more housing, 
and we should get more of that. I also believe that as much--
    Mr. Steil. Expanding and encouraging further some of these 
Opportunity Zones, in your analysis, would provide for a 
greater opportunity for additional affordable housing in some 
of our more challenged neighborhoods across the United States?
    Mr. Gage. Absolutely. This is a bipartisan solution and we 
should, in a bipartisan way, seek their success in Opportunity 
Zones.
    Mr. Steil. And one other area that I don't think we talk 
enough about--we talk about it some, but not enough--is the 
high cost of housing, particularly when you look at Los 
Angeles, and you look at New York City, and the zoning that is 
associated with that. You know we--it will be for another time. 
I appreciate your time, and I yield back.
    Chairman Cleaver. Mr. Steil, thank you very much.
    And let me now thank all of our witnesses for bringing us 
testimony today, and for your generous responses to our 
questions.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Mr. Stivers. Thank you, Mr. Chairman. Great job.
    Chairman Cleaver. I'm looking forward to sitting down and 
talking. I don't know who else is still around, but what we 
might want to sit down and do is come up with a list of some of 
the better ideas, and obviously that is subjective, but the 
better ideas, and see if we can actually move some of these 
better ideas that we all agree could be corrective steps.
    Mr. Stivers. That is a great first step, Mr. Chairman. I 
will look forward to that when we get back in D.C., and are 
together, and I hope we can do more hearings and meetings in 
person now that a lot more people are vaccinated.
    Chairman Cleaver. Yes. I think almost all of us are, but, 
yes. I am excited about it. If we did some kind of a pilot 
project, then we wouldn't have to tap legislation to do 
something nationwide. For example, a unit on the [inaudible] 
shelf. I would be a little hesitant to want to do that 
nationwide, because there is a collapse. It would be herculean. 
But anyway, you and I have worked together. I think we might be 
able to do something. We have Mr. Torres, who grew up in public 
housing. He is very knowledgeable about what is going on, but 
you don't necessarily need to have lived in public housing to 
come up with good ideas about it. So, I'm looking forward to 
that when we get back.
    Mr. Stivers. I think it will be great. A lot of common 
ground, Mr. Chairman. Thank you.
    Chairman Cleaver. Thanks, everybody.
    This hearing is adjourned.
    [Whereupon, at 1:45 p.m. the hearing was adjourned.]

                            A P P E N D I X

                             March 24, 2021
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
                               
                             
</pre></body></html>
